                         Table of Contents


Section                                                           Page




ACRONYMS AND ABBREVIATIONS                                          ii


EXECUTIVE SUMMARY                                                  1


INTRODUCTION AND BACKGROUND                                        4


OBJECTIVES, SCOPE, AND METHODOLOGY                                11


RESULTS IN DETAIL                                                 13


  A. Why Eastern New York Federal Credit Union Failed             13

  B. NCUA Supervision of Eastern New York Federal Credit          18
     Union
OBSERVATIONS AND LESSONS LEARNED                                  24


SUGGESTIONS                                                       24


RECOMMENDATIONS                                                   25


APPENDIX


  A. NCUA Management Response                                     27




                                             Restricted – For Official Use Only
                                  i
Acronyms and Abbreviations

Board              Board of Directors
Crowe              Crowe Horwath LLP
CU                 Credit Union
CUSO               Credit Union Service Organization
DOR                Document of Resolution
EIC                Examiner in Charge
ENY FCU            Eastern New York Federal Credit Union
FCU                Federal Credit Union
FOM                Field of Membership
FPR                Financial Performance Reports
Examiner’s Guide   NCUA Examiner’s Guide
MBL                Member Business Loans
MLR                Material Loss Review
NCUA               National Credit Union Administration
NCUSIF             National Credit Union Share Insurance Fund
OIG                Office of Inspector General
RegFlex            Regulatory Flexibility Program
RBNW               Risk Based Net Worth
TIP                Trade and Industry Professional
UCC                Uniform Commercial Code




                                                 Restricted – For Official Use Only
                                       ii
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




Executive Summary

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Crowe Horwath LLP (Crowe) to conduct a Material Loss Review
(MLR) of Eastern New York Federal Credit Union (ENY FCU or Credit Union), a
federally insured credit union (federal credit union (FCU)). We conducted this
review to: (1) determine the cause(s) related to the liquidation of ENY FCU and the
resulting loss to the National Credit Union Share Insurance Fund (NCUSIF);
(2) assess NCUA’s supervision of the credit union, and (3) make appropriate
observations/recommendations to prevent future losses. To achieve these
objectives, we analyzed NCUA examination and supervision reports and related
correspondence; interviewed management and staff from NCUA Region I; reviewed
NCUA guides, policies and procedures, and NCUA Call Reports, and NCUA
Financial Performance Reports (FPRs). 1

We determined Eastern New York Federal Credit Union failed for the following
reasons:

       •   Poor Corporate Governance – ENY FCU’s former Chief Executive Officer
           (CEO) served from August 2006 to September 3, 2010. The Board of
           Directors (Board) gave the CEO broad authority to conduct various and
           significant transactions with very little push back. The CEO instilled an
           unhealthy tone at the top as questioning his decisions was not permitted. In
           addition, the Board failed to understand and establish appropriate limits over
           the level of risk undertaken by the CEO. Due to a lack of effective corporate
           governance, the following problem areas resulted in the credit union’s
           liquidation.

                o Credit Union Service Organization (CUSO) – ENY FCU developed a
                  complex, multi-layered network of CUSOs in which funds were loaned
                  between CUSO’s with little or no documentation supporting collateral
                  positions. Additionally, the credit union recorded accrued income of
                  almost $900 thousand related to the potential gain on the sale of
                  CUSO patent rights in 2008 and 2009. ENY FCU management did
                  not properly support the accruals, which gave the Credit Union the
                  appearance of profitability. The entries were later reversed in 2010.

                o Member Business Loans (MBL) – The MBL portfolio grew from one
                  loan of $200,000 in 2007 to 26 loans totaling approximately $3.5
                  million by the end of 2009. ENY FCU failed to demonstrate effective
                  due diligence or a thorough understanding of the business loan
                  customers to identify the relationships between the borrowing entities.

1
    Section III of Crowe’s report provides further details on the Objectives, Scope, and Methodologies utilized.

                                                                       Restricted – For Official Use Only
                                                          1
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




                   As a result, the Credit Union made loans to two separate, but related,
                   families creating a concentration of $2.8 million.

               o Fixed Assets – Liberty branch Acquisition – The Credit Union acquired
                 the Liberty branch office through a merger with Catskill Regional
                 Credit Union. As a result of the acquisition, the Credit Union
                 exceeded the maximum allowable fixed asset ratio. ENY FCU
                 management later sold the building to an investor and then entered
                 into a capital lease arrangement for the same building with the same
                 investor. Management did not properly record the lease as a capital
                 lease, misrepresenting the Credit Union’s financial statements.
                 Compounding the already high fixed asset position of ENY FCU,
                 management set about a branch modernization plan that resulted in
                 nearly $1 million in additional leasehold improvements to this branch.

NCUA Supervision

NCUA’s Region I supervised ENY FCU up to and through the liquidation process.
The Credit Union received composite CAMEL ratings of 3 during examinations and
supervision contacts occurring in 2006 and 2010. During these examinations, we
believe the NCUA took the correct actions based on issues and concerns identified.
However, during 2007, 2008, and 2009 the composite CAMEL ratings consistently
remained a 2 despite negative trends involving earnings, net worth, net income, and
unusually large increases in investment income. There was a single examiner in
charge (EIC) 2 assigned to the Credit Union between 2006 through 2009. Upon this
EIC’s departure, Region I management reassigned the Credit Union in early 2010
to a different EIC with more experience. During the newly assigned, more
experienced EIC’s first examination, the composite CAMEL rating was downgraded
to 3.

We believe the first EIC assigned to ENY FCU from 2006 through 2009 had the
appropriate information to identify early warning signs that should have elicited
further research. While we cannot conclude that further analysis of the negative
trends would have prevented the Credit Union’s liquidation, we can reason that
detection could serve as a 'red flag,' prompting examiners to conduct more
frequent, thorough or detailed examinations. Based on our review, we determined
the following contributory factors:

      •    The initial EIC had limited experience and lacked adequate oversight,
      •    Lack of detailed quality review to aid in identifying potential issues
           overlooked by the examination process,


2
    NCUA hired the EIC in July 2005 and assigned her to ENY FCU after promoting her to a Grade 9 in July 2006.

                                                                   Restricted – For Official Use Only
                                                       2
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




    •   Lack of in-depth examinations related to CUSO activity.

As a result of our review of the liquidation of ENY FCU, we are making two
recommendations and two suggestions. Our recommendations relate to expanding
the quality control function for critical elements and potential red flag issues, and
reviewing current examination procedures over CUSOs to determine whether
current procedures are adequate to identify the degree of risk a CUSO poses. Our
suggestions relate to NCUA’s National Instruction on EIC rotation and developing a
Risk Report threshold that addresses anomalies on yields for major asset
categories such as loans and investments.

We appreciate the effort, assistance and cooperation NCUA management and staff
provided to us during the review.




                                                               Restricted – For Official Use Only
                                                   3
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




Introduction and Background

The National Credit Union Administration (NCUA) Office of the Inspector General
(OIG) contracted with Crowe Horwath, LLP (Crowe) to conduct a Material Loss
Review (MLR) for Eastern New York Federal Credit Union (ENY FCU or Credit
Union) as required by Section 216 of the Federal Credit Union Act (FCU Act),
12 U. S. C. 1790d(j).

History of Eastern New York Federal Credit Union

NCUA charted ENY FCU in 1961 to serve employees and family members of the
Eastern New York Correctional Facility in Napanoch, New York. Additional mergers
over time with other correction facility credit unions expanded the Field of
Membership (FOM) to serve employees of medium and maximum-security state
correctional facilities located in the New York counties of Ulster, Orange, and
Sullivan, as well as state and municipal employees in the town of Liberty, New
York. In 2008, ENY FCU applied for a charter conversion to Trade and Industry
Professional (TIP) serving all state and municipal employees in seven counties
making up the lower Hudson Valley region in New York State. Prior to the TIP
conversion (as noted in the December 31, 2007, Call Report), ENY FCU reported
7,032 members and a potential membership of 20,000. ENY FCU had limited
penetration into the potential FOM from the TIP conversion. On the
September 30, 2011 Call Report, ENY FCU reported 6,865 members with a
potential membership of 158,044.

Prior to 2006, the Credit Union was participating in the RegFlex program offered by
the NCUA. This program gave eligible institutions flexibility regarding certain
regulations.

Between July 2006 and September 2006, the NCUA initiated a full scope exam in
which examiners were critical of management and the Board indicating that there
had been little leadership for close to two years. As a result, NCUA lowered the
Credit Union’s composite CAMEL rating to a 3, with the Management component
being assigned a 4 due to the lack of oversight and leadership from executive
management and the Board. The NCUA issued a DOR with corrective action
issued for identified problem areas relating to credit risk, transaction risk, and
strategic risk. Upon receiving the DOR and downgraded CAMEL rating, the CU
immediately lost RegFlex eligibility. It was also during this time that the Board hired
a new Chief Executive Officer.

In March 2007, examiners performed a follow-up supervision contact to evaluate
the progress the Credit Union had made regarding a recent DOR. The examiner
complimented the responsiveness of management and the Board noting that all



                                                               Restricted – For Official Use Only
                                                   4
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




DOR items had been resolved and upgraded ENY FCU’s composite CAMEL rating
to a 2.

In July 2007, the Credit Union merged with Catskills Regional Credit Union, which
included the acquisition of a branch in Liberty, NY. As a result of this acquisition,
the Credit Union exceeded the maximum regulatory fixed asset ratio of 5 percent.
Assisted by the assigned examiner, the Credit Union filed for a fixed asset waiver.
NCUA ultimately declined the waiver due to Credit Union management’s inability to
supply all requested documentation. Ultimately, ENY FCU sold the facility in June
2008 to ENY Holdings LLC (ENY Holdings), a CUSO of the ENY FCU, and entered
into a 20-year capital lease to retain use of the building as a working branch.

ENY FCU created its first wholly owned CUSO, ENY Holdings, on
October 11, 2007. The CUSO named ENY FCU’s CEO as its vice-president. A
sale-leaseback transfer of ENY FCU’s ATMs ($123 thousand equity investment)
provided the CUSO’s initial equity. Three months later, in December 2007, the
Credit Union granted the first of many CUSO related loans to ENY Holdings for
$370 thousand.

The following month, in July 2008, ENY Holdings obtained a study to analyze the
offering price of a partially developed patent referred to as Rate Match. This
planning report returned a hypothetical valuation of $450 thousand based on
potential cash flow of $70 to $75 thousand per month from monthly technical
subscriptions for the Rate Match product from client financial institutions. The
Credit Union recorded monthly income entries from $70 – $75 thousand between
July 2008 and April 2010 related to this activity.

On September 16, 2008, ENY FCU formed a second CUSO, Syphr LLC (Syphr), in
New York State and funded it as follows:

    •   $50,000 cash funding by ENY FCU;

    •   $250,000 deposit by ENY Holdings in the form of goodwill for Rate Match;

    •   $300,000 from National Innovative Software Solutions (NISS) in the form of
        goodwill, and

    •   $300,000 from Equidata in the form of goodwill for its subscriber codes.

ENY FCU provided the only cash investments recorded during the formation of
Syphr. The remaining entities deposited unsupported and undocumented goodwill
into the Syphr, LLC CUSO.



                                                               Restricted – For Official Use Only
                                                   5
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




In December 2008, examiners completed a full scope examination as of June 30,
2008 (effective) in which the Credit Union received a composite CAMEL rating of 2.
Examiners first began to acknowledge that ENY FCU’s profitability was the result of
income received directly from Syphr LLC during this examination.

Between March and May 2009, the following three transactions occurred:

    •   The Credit Union loaned ENY Holdings $400 thousand;

    •   ENY Holdings loaned Syphr $300 thousand;

    •   The Credit Union capitalized an $80 thousand loan for ENY Holdings.

Three additional entities were created and funded between July 2009 and
November 2009:

    •   Save on Your Loan (SOYL) – created by funding from Syphr and an
        unrelated consulting company, Wirikuta. Syphr created this CUSO as a sub-
        CUSO. Wirikuta’s initial investment would be reduced to $0 by the end of
        the year as the result of multiple payments from the CUSO.

    •   SettleMyLoan.com (SML.com) The CEO created this LLC from funding of a
        $40 thousand loan from the Credit Union. Subsequent to initial funding,
        there were two transfers of $5 thousand to ENY Holdings and the CEO.

    •   In the Margins LLC – The CEO created this LLC by funding from ENY FCU
        through a $45 thousand loan. In the Margins LLC transferred $42 thousand
        to SOYL and $1,500 to the CEO, neither of which were registered on the
        transaction register.

The Credit Union’s MBL activity grew from less than $1 million in 2008 to $3.5
million in 2009. Of this amount, 17 loans totaling $3.1 million or 88 percent of the
total dollar value originated to family members of member business loan customers.
ENY FCU’s CEO and Chairman of the Board approved all loans

During 2009, the NCUA performed two on-site supervision contacts at the Credit
Union, both of which resulted in composite CAMEL ratings of 2 and no DORs
issued.

Syphr made a capital contribution to SOYL of $798 thousand in December 2009. In
January 2012, Advance Decisions received a loan from ENY FCU, which was used
in part to provide $50 thousand in new investor funding to Syphr.



                                                               Restricted – For Official Use Only
                                                   6
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




In June 2010, examiners conducted a supervision contact of ENY FCU for two
reasons: 1) regional management assigned a new, more experienced EIC; and 2)
the Credit Union’s ratios and profitability were declining. As a result of the review,
the composite CAMEL rating was downgraded to a 3. The examiner specifically
cited the observation of the downward trend that began in 2006 as shown in
Table 1 (below):

Table 1




Source: Financial Performance Reports (FPR) and examination information.


The ENY FCU CEO resigned in September 2010 to become President and CEO of
Syphr LLC. The Credit Union’s Board appointed the Vice President as the interim
CEO.

In October 2010, the NCUA performed a full scope examination with an effective
date of June 30, 2010. Examiners determined ENY FCU management did not
correctly report or include the capital lease for the Liberty Branch in its disclosure of
fixed assets until directed to do so following the June 30, 2010, NCUA examination.
By the time the Credit Union was correctly treating and accounting for fixed assets,
the fixed assets ratio had risen to 11.06 percent in violation of NCUA Rules and
Regulation Section 701.36. Additionally, examiners raised concerns related to the
former CEO's involvement with the numerous CUSOs and LLCs created and
interrelated with Syphr LLC. Examiners also issued DORs related to credit risk
(concentration in MBLs), strategic risk (unprofitability, no net worth restoration plan
(NWRP), collapsed merger), and compliance risk (excessive fixed assets and
inadequate Allowance for Loan and Lease Losses (ALLL) policy).



                                                                       Restricted – For Official Use Only
                                                          7
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




The Credit Union attempted to merge with other institutions several times. The
NCUA reached out to three large local credit unions in an attempt to find a suitable
merger partner. One of the potential merger partners showed interest in the merger
and began performing due diligence procedures. In December 2010, the potential
merger partner withdrew from the merger process due to concerns it found with
respect to a myriad of issues in the Credit Union, namely the validity and complexity
of CUSO investments, excessive leasehold improvements, overbearing contractual
(lease) obligations, and MBLs.

In January 2011, examiners began a full scope examination as a direct result of the
breakdown of the merger. Examiners noted unusual activity between ENY FCU
and the multiple CUSOs and subsidiary LLCs, including a $900 thousand
receivable entered on ENY Holdings’ books, due from Syphr, LLC. Upon further
investigation, examiners determined the receivable related to income accruals from
2009 and 2010 for potential gain on the sale of patent rights of the CUSO.

On March 16, 2011, Regional officials assigned ENY FCU to the Division of Special
Actions, and thereafter the Credit Union operated with consistent on-site Problem
Case Officer presence. The extended delay in uploading the December 31, 2010,
examination (effective) was due to the extensive research required on the MBLs,
CUSOs, and fixed asset issues. In addition, NCUA’s Asset Management and
Assistance Center (AMAC) performed an on-site visit in August 2011 to assist in
valuing assets related to the problem areas noted. ENY FCU recorded a reversal
of $887,500 of income accruals from 2009 and 2010 related to the potential gain on
the sale of patent rights owned by the CUSO. As a result, Net Worth ratio declined
to 2.06 percent as of March 31, 2011.

AMAC also assisted in valuing assets related to the other problem areas noted
(primarily the capital lease/lease back and member business loans). AMAC
estimated impairment losses from MBLs to be $2.4 million.

A final CAMEL downgrade occurred in October 2011 in which examiners lowered
the composite CAMEL rating to 5. Subsequently, NCUA placed ENY FCU into
involuntary liquidation and completed a purchase and assumption (P&A), and
entered into an agreement with U.S. Alliance Federal Credit Union. As of
September 2012, the estimated loss to the NCUSIF was approximately $3.6 million;
however, the final cost to the NCUSIF will not be known until all assets are sold.

NCUA Examination Process

The NCUA uses a total analysis process that includes collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing
action plans. The objectives of the total analysis process include evaluating
CAMEL components and reviewing qualitative and quantitative measures. The

                                                               Restricted – For Official Use Only
                                                   8
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union’s financial condition and operations. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends. Generally,
the examiner uses the key ratios to evaluate and appraise the credit union’s overall
financial condition. During an examination, examiners assign a CAMEL rating,
which completes the examination process.

Examiner judgment affects the overall analytical process. An examiner’s review of
data includes structural analysis 3, trend analysis 4, reasonableness analysis 5,
variable data analysis 6, and qualitative data analysis 7. Numerous ratios measuring
a variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.
Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
for future problems. The NCUA also instructs examiners to look behind the
numbers to determine the significance of the supporting ratios and trends.
Furthermore, the NCUA requires examiners to determine whether material negative
trends exist; ascertain the action needed to reverse unfavorable trends; and
formulate, with credit union management, recommendations and plans to ensure
implementation of these actions.

Risk-Focused Examination Program

In 2002, the NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-
focused supervision procedures often include reviewing both off-site monitoring
tools and risk evaluation reports, as well as on-site work. The RFE process
includes reviewing seven categories of risk: Credit, Interest Rate, Liquidity,
Transaction, Compliance, Strategic, and Reputation. Examination planning tasks
may include: (a) reviewing the prior examination report to identify the credit union’s
highest risk areas and areas that require examiner follow-up, and (b) analyzing Call
Reports and direction of the risks detected in the credit union’s operation and on
management’s demonstrated ability to manage those risks. A credit union’s risk
profile may change between examinations. Therefore, the supervision process
encourages the examiner to identify those changes in profile through:


3
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
4
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
5
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
6
  Examiners can often analyze an examination area in many different ways. NCUA‟s total analysis process
enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
7
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentage.

                                                                    Restricted – For Official Use Only
                                                        9
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




    •    Review of Call Reports;
    •    Communication with credit union staff; and
    •    Knowledge of current events affecting the credit union.

Regulatory Flexibility Program

The NCUA Board established a RegFlex in 2002 to exempt qualifying credit unions
in whole or in part from a series of regulatory restrictions and grant them additional
powers. 8 A credit union may qualify for RegFlex automatically or by application to
the appropriate Regional Director. To qualify automatically for RegFlex, a credit
union must have a composite CAMEL rating of 1 or 2 for two consecutive
examination cycles and, under existing part 742, also must achieve a net worth
ratio of nine percent 9 for a single Call Reporting period. If the credit union is
subject to a risk-based net worth (‘‘RBNW’’) requirement, however, the credit
union’s net worth must surpass that requirement by 200 basis points. 10

A credit union that is unable to qualify automatically for RegFlex may apply to the
appropriate Regional Director for a RegFlex designation. To be eligible to apply, a
credit union must either have a composite CAMEL rating of 3 or better or meet the
present nine percent net worth criterion, but not both. 11 A Regional Director has the
discretion to grant RegFlex relief in whole or in part to an eligible credit union. A
federal credit union’s RegFlex authority can be lost or revoked. A credit union that
qualified for RegFlex automatically is disqualified once it fails as the result of an
examination (but not a supervision contact), to meet either the CAMEL or net worth
criteria. 12

RegFlex authority can be revoked by action of the Regional Director for
‘‘substantive and documented safety and soundness reasons”. 13 The decision to
revoke is appealable to NCUA’s Supervisory Review Committee, and thereafter to
the NCUA Board. 14 RegFlex authority ceases when that authority is lost or
revoked, even if an appeal of a revocation is pending 15. However, past actions
taken under that authority are ‘‘grandfathered,’’ i.e., they will not be disturbed or
undone.



8
  12 CFR part 742 (2005); 66 FR 58656 (Nov. 23, 2001)
9
  200 basis points above the net worth ratio to be classified “well capitalized”
10
   12 CFR 742.1 (2005)
11
   12 CFR 742.2 (2005)
12
   § 742.2(a). 12 CFR 742.6 (2005)
13
   § 742.2(b)(2005)
14
   12 CFR 742.7 (2005)
15
   12 CFR 742.6 (2005)

                                                                      Restricted – For Official Use Only
                                                        10
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




Objectives, Scope and Methodology

We performed this material loss review to satisfy the requirements of Section 216(j)
of the FCU Act, 12 U.S.C. §1790d(j), which requires the OIG to conduct a material
loss review when the NCUSIF has incurred a material loss. 16 Additionally, the 2010
amendments to the FCU Act, embodied in the “Dodd-Frank Wall Street Reform and
Consumer Protection Act,” 17 further require the OIG to conduct an in-depth review
of any loss to the NCUSIF where unusual circumstances exist that might warrant an
in-depth review of the loss. In the case of ENY FCU, the OIG determined the
circumstances surrounding the loss to the NCUSIF were unusual enough to warrant
a review, even though the loss did not exceed the $25 million threshold.
Specifically, the OIG determined the losses related to the CUSOs warranted the
OIG performing a full-scope MLR.

Our audit objectives were to: (1) determine the cause(s) related to ENY FCU’s
failure and the resulting loss to the NCUSIF; (2) assess NCUA’s supervision of the
credit union, and (3) make appropriate observations/recommendations to prevent
future losses.

We conducted this review from May 2012 to November 2012 in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained as described in the Scope and Methodology
section, provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The scope of this audit included an analysis of ENY FCU from 2006 to
January 20, 2012; the date NCUA involuntarily liquidated ENY FCU. Our review
also included an assessment of NCUA regulatory supervision of the institution
during the same period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

     •   We analyzed NCUA examination and supervision contact reports and related
         correspondence and examiner work papers contained within the AIRES 18
         system.


16
   The FCU Act deems a loss “material” if the loss exceeds the sum of $25 million or an amount equal to 10
percent of the total assets of the credit union at the time in which the NCUA Board initiated assistance under
Section 208 or was appointed liquidating agent.
17
   Public Law 111-203–July 21, 2010, 124 Stat.1939.
18
   NCUA’s Automated Integrated Regulatory Examination Software.

                                                                    Restricted – For Official Use Only
                                                       11
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




    •   We interviewed management and/or staff from NCUA Region I and reviewed
        NCUA guides, policies and procedures, as well as NCUA Call Reports, and
        NCUA Financial Performance Reports (FPRS).

    •   We reviewed ENY FCU data and correspondence maintained at the NCUA
        Regional Office in Albany, New York as provided to Crowe by NCUA.

Crowe relied primarily upon the materials provided by the NCUA OIG and NCUA
Region I officials, including information and other data collected during interviews.
We relied on our analysis of information from management reports, correspondence
files, and interviews to corroborate data obtained to support our audit conclusions.
We conducted interviews to gain a better understanding of decisions made
regarding the activities of credit union management and the NCUA’s supervisory
approach, and to clarify information and conclusions contained in reports of
examination and other relevant supervisory correspondence between the NCUA
and ENY FCU. Crowe relied on the information provided in the interviews without
conducting additional specific audit procedures to test such information.




                                                               Restricted – For Official Use Only
                                                   12
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




they had disbursed the loan proceeds. Examiners estimated the ALLL account was
under funded by $819,433 for these unsecured loans in violation of NCUA Rules
and Regulations. 19

Table 3 (below) illustrates the majority of the MBL activity occurred between 2009
and 2011.

Table 3




Source: Financial Performance Reports (FPR) and annual examination records


Excessive Fixed Assets and Leasehold Activity

Credit Union management acquired the Liberty branch through a merger with
Catskill Regional Credit Union in early 2007. As a result of the acquisition and loss
of the RegFlex eligibility, ENY FCU exceeded the maximum fixed asset ratio. The
Credit Union had the opportunity to apply for a fixed asset waiver, but failed to
supply the required documentation. After several attempts, NCUA’s Region I
declined the waiver.

In 2007, Credit Union management sold the branch to its wholly owned CUSO,
ENY Holdings LLC, in an attempt to eliminate the fixed assets from the Credit
Union’s balance sheet. Shortly thereafter, the CUSO sold the building for a
$200,000 profit, as part of a sale and leaseback agreement to conceal fixed assets
that were growing out of control. The Credit Union committed to a 20-year lease for
this branch that would cost over $1.7 million over the life of the lease. As part of

19
     Section 723(c) (2).

                                                                      Restricted – For Official Use Only
                                                         16
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




this agreement, ENY FCU was responsible for maintenance, as well as property
taxes.

Credit Union management also spent more than $1 million in leasehold
improvements on the Liberty Branch. A subsequent inspection of the branch
concluded that the improvements were incomplete and would require significant
additional funds to complete (estimated at nearly another $500,000).

Examiners determined ENY FCU did not benefit from this transaction and neither
the Board nor CEO could provide an explanation other than a regulatory fixed asset
concern. ENY FCU failed to record the lease as a capital lease either on the books
of the CUSO or the Credit Union. Ultimately, if Credit Union management had
properly recorded the lease, and properly consolidated the financial statements of
ENY FCU and its wholly owned CUSO, the fixed asset violation and related issues
would have been immediately apparent.




                                                               Restricted – For Official Use Only
                                                   17
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




Oversight of Inexperienced Examiner

During our review, we determined the EIC assigned to examine ENY FCU from 2006
through 2009 had less experience
                                 . Although, the oversight of this examiner was the
standard protocol in place during this time period, oversight did not include a detailed
review of work performed in order to identify deficiencies within the examination
process. We also determined there was no criticism of the Credit Union from 2007 until
NCUA Region I officials reassigned the Credit Union to a different, more experienced,
examiner in late 2009. We believe that this was a contributory factor to the delay in
identifying early warning signs.

Examiner Rotation

We determined that the new, inexperienced EIC was assigned to ENY FCU for three
calendar years, an amount of time well within NCUA guidelines, and according to NCUA
guidelines, could have remained involved for a fourth year but for departing the NCUA
in 2009.

The National Supervision Policy Manual (NSPM) states:

        “NCUA Instruction No. 5000.19, Examiner-In-Charge Rotation, dated November
        23, 2005, describes the current policy for examiner rotation. Supervisors will
        ensure adequate rotation of EICs occurs.”

The aforementioned instruction indicates that a credit union could have the same EIC
for up to four calendar years. We believe there may be instances where it is prudent to
rotate an EIC sooner than what the current timeframe allows, such as in the case of
ENY FCU where a new, inexperienced examiner                                     , was
allowed to remain the EIC for three years.

Mandatory Quality Control

During our review, we determined there was no mandatory quality control function in
place over examiner workpapers and supporting documentation. The oversight function
was selective based upon the circumstances presented with each examiner and credit
union. As a result, there was increased risk that examiners and SEs overlooked
violations and possible red flags. Although this would not have prevented the collapse
of ENY FCU, we believe examiners could have identified the issues much sooner.

NCUA’s Examiner’s Guide, Chapter 22 “Examination Evaluation and Review Policy”
addresses quality control, as does Chapter 4 “Quality Assurance Program” of NCUA’s




                                                                    Restricted – For Official Use Only
                                                     20
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




In September 2006, NCUA Region I performed an examination as of June 30, 2006
(effective) that resulted in the Credit Union’s composite CAMEL rating being down-
graded from 2 to 3. This downgrade also resulted in the Credit Union losing their
RegFlex designation and examiners issuing a DOR with corrective action for observed
problem areas related to credit risk, transaction risk, and strategic risk. Examiners
performed a follow-up examination in early 2007 in which the composite CAMEL rating
was returned to 2. The examiner stated:

        [T]he Board of Directors, Supervisory Committee, CEO, and staff of Eastern [sic]
        FCU are commended for the corrective action taken to address all concerns
        raised in the previous Document of Resolution.

Examiners completed their June 30, 2007 (effective) full-scope examination in October
2007, which also resulted in a composite rating of 2. However, the examiner observed
that the ROA was “negative due to ongoing charge-offs from the previous year,” but
they “are profitable in August.”

During 2009, NCUA did not conduct a full scope examination. Rather, examiners
conducted two on-site supervision contacts effective as of March 31, 2009 and
September 30, 2009. The Credit Union again lost RegFlex eligibility as of
March 31, 2009 due to their net worth falling below seven percent, yet, CAMEL ratings
remained consistent.

Investment income trends indicated an unusual spike in the income component
beginning in mid-2008, yet we found no supporting documentation in 2009 regarding the
investigation into the nature of the income. In each examination between 2007 and
2009, the examiner identified declining profitability yet determined the Credit Union
would be profitable within the next quarter or by year- end. In late 2009, the EIC left the
employment of the NCUA and Region I officials reassigned the Credit Union to a
different, more experienced, EIC.

In May 2010, the newly assigned EIC made initial supervisory contact and expressed
concerns to ENY FCU management officials regarding:

    •    The declining Net Worth (NW) and the expectation the Credit Union would hit 4
         percent NW by December 31, 2010.

    •    The expectation that the Credit Union would be undercapitalized by
         June 30, 2010.

    •    Urgency needed by the Board and the lack of action currently being taken.

    •    The impending departure of the current CEO and the concern regarding the lack
         of experience of the interim CEO.

                                                                    Restricted – For Official Use Only
                                                     22
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




    •    Challenges regarding finding a qualified merger partner due to ENYFCU’s
         charter.

In December 2010, a potential merger partner conducted merger due diligence on ENY
FCU. The potential merger partner withdrew from the merger process as a result of
concerns identified with respect to a myriad of issues in the Credit Union, namely the
validity and complexity of CUSO investments, excessive leasehold improvements,
overbearing contractual (lease) obligations, and quality concerns related to MBL.

The potential merger partners’ refusal to perform an unassisted merger with ENY FCU
necessitated an immediate examination by NCUA to identify and address the concerns
noted as obstacles to the merger. Region I examiners initiated an examination on
January 10, 2011. The examination developed a detailed analysis of key problem areas
namely with the credit union CUSO operations. In addition, the examination focused on
the other primary areas of concern including fixed assets in the form Leasehold
improvements, unrecognized capital Leases, and MBL.

We determined examiners did not properly address ENY FCU’s ability to generate
income independent of the CUSO. NCUA developed an expanded Scope Workbook for
field staff within the last year that includes CUSO examination steps. These steps
indicate what examiners should review when they address CUSOs at each exam, which
includes completing a CUSO questionnaire. We believe current guidance should also
address a credit union’s ability to generate income independent of the CUSO, which
would highlight concerns that could lead to expanding the scope where unusual trends
are identified.

Chapter 7 of the new NSPM addresses CUSOs, and has a brief discussion on the
scope of CUSO reviews, and notes, “Chapter 25 of the Examiner’s Guide provides
guidance on the review’s scope.” However, we believe this chapter is in need of
updating to reflect the current supervision needs given the complexity of today’s
CUSOs.

Table 6 (below) provides examination results for examinations and supervision contacts
from June 30, 2006 (effective) through November 21, 2011 (effective).




                                                                    Restricted – For Official Use Only
                                                     23
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




Table 6

                                            Examination Results

 Examination                       Composite        Capital/
                        Work                                     Asset
 Effectiveness              21      CAMEL            Net                    Management       Earnings    Liquidity
                       Code                                      Quality
 Dates                              Rating          Worth
 6/30/2006               10             3               1           3             4              1           3
 12/31/2006              22             2               1           2             2              2           2
 6/30/2007               10             2               1           2             2              4           2
 12/31/2007              22             2               1           2             2              4           2
 6/30/2008               10             2               1           2             2              3           2
 3/31/2009               22             2               2           2             2              3           2
 9/30/2009               22             2               3           2             2              2           2
 3/31/2010               22             3               3           2             3              4           3
 6/30/2010               10             3               3           2             4              4           3
 12/31/2010              10             5               5           3             5              5           5
 11/21/2011              22             5               5           4             5              5           5
Source: Examination information in AIRES.

Observations and Lessons Learned

Important observations and lessons learned from our review of this liquidation include:

     •   Strong supervisory oversight is critical for new and inexperienced examiners,
                                                                      . Increased
         supervisory involvement in the planning and risk identification process, along with
         more detailed reviews of working papers and supporting documentation can help
         identify red flags earlier.
     •   Complex CUSO ownership structure, activities, and risks require a need for in
         depth analysis by experienced examiners. CUSO violations identified within the
         examination should impact final CAMEL and composite ratings.

Suggestions

Based on observations from our review, we are making the following two suggestions to
NCUA management:

We suggest NCUA management:

     1. Consider expanding on the discussion in NCUA guidance regarding EIC rotation
        because it may be prudent to rotate EICs earlier than current timeframes

21
  Work Classification Code (WCC) 10 is a regular on-site examination of a federally chartered credit union and WCC
22 is a more limited supervision on-site contact of a federal credit union.

                                                                        Restricted – For Official Use Only
                                                       24
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




        suggest. For example, it may be reasonable to rotate EICs earlier when the EIC
        has been with the agency for less than five years,
                                                       .

Management Response

Management indicated they are currently evaluating additional alternatives to NCUA’s
current guidance on examiner rotation, including enhanced quality control sampling.

OIG Response

We concur with management’s response.


    2. Consider developing a Risk Report threshold that addresses anomalies on yields
       for major asset categories such as loans and investments. This type of report
       would highlight extreme outliers, which would indicate to examiners the need to
       expand examination procedures.

Management Response

Management indicated they believe such fields may be beneficial and will explore the
feasibility of including them in the Risk Report in 2013.

OIG Response

We concur with management’s response.

Recommendations

Based on the findings in this report, we are making the following two recommendations
to NCUA management:

We recommend NCUA management:

    1. Consider expanding current quality control functions to include a review of
       examination working papers and supporting documentation performed by the
       Supervisory Examiner for critical elements and potential red flag issues,
       especially for new or less-experienced examiners,
                               .




                                                                    Restricted – For Official Use Only
                                                     25
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




Management Response

Management indicated the guidance incorporated in the National Supervision Policy
Manual and the Examiner’s Guide adequately addresses this issue and includes
specific requirements for supervisors. Management indicated supervisors may perform
a full review of all documents if they determine this level of review is necessary.

OIG Response

We concur with management’s response.


    2. Review current examination procedures over CUSOs to not only ensure
       regulatory compliance, but most importantly, to determine whether current
       procedures are adequate to identify the degree of risk the CUSO poses to the
       affiliated credit union.

Management Response

Management indicated that within the last year NCUA expanded the Scope Workbook
including CUSO examination steps, as well as a CUSO questionnaire noting they
believe there is currently sound direction regarding which CUSO related information
should be reviewed during each examination. However, management also indicated
that current guidance does not require a review of a credit union’s ability to generate
income independent of its CUSOs and agreed to evaluate the feasibility of expanding
current examination procedures over CUSOs, and whether to include a review of the
credit union and CUSO as standalone entities in regards to profitability.

OIG Response

We concur with management’s response.




                                                                    Restricted – For Official Use Only
                                                     26
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




Appendix A - Management Response




                                                               Restricted – For Official Use Only
                                                   27
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




                                                               Restricted – For Official Use Only
                                                   28
Report #OIG-12-14: Material Loss Review of Eastern New York Federal Credit Union




                                                               Restricted – For Official Use Only
                                                   29
